<html>
<title> - LEBANON AND IRAQ: AFTER THE ELECTIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 LEBANON AND IRAQ: AFTER THE ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                           Serial No. 115-133

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-174PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>                      
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael Doran, Ph.D., senior fellow, The Hudson Institute........     7
Ms. Danielle Pletka, senior vice president, Foreign and Defense 
  Policy Studies, American Enterprise Institute..................    16
Tamara Cofman Wittes, Ph.D., senior fellow, Center for Middle 
  East Policy, The Brookings Institution.........................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Michael Doran, Ph.D.: Prepared statement.........................    10
Ms. Danielle Pletka: Prepared statement..........................    19
Tamara Cofman Wittes, Ph.D.: Prepared statement..................    27

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
Written response from Ms. Danielle Pletka to question submitted 
  for the record by the Honorable Ann Wagner, a Representative in 
  Congress from the State of Missouri............................    50

 
                 LEBANON AND IRAQ: AFTER THE ELECTIONS

                              ----------                              


                         TUESDAY, MAY 22, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Mr. Schneider for our opening 
statements, I will then recognize other members seeking 
recognition for 1 minute. We will then hear from our witnesses. 
Without objection, witnesses, your prepared statements will be 
made a part of the record and members may have 5 days in which 
to insert statements and questions for the record, subject to 
the length limitation and the rules.
    The Chair now recognizes herself for 5 minutes.
    This month's parliamentary elections in Lebanon and Iraq 
will have lasting implications not just for their citizens but 
for the interests of the United States and our allies 
throughout the Middle East, especially Israel.
    In Lebanon, Hezbollah and its allies have gained a majority 
in Parliament, increasing the Iranian influence and the control 
over Lebanon's Government. Many of us have been warning about 
Hezbollah's growing influence in Lebanon for quite a while now, 
suggesting that tough decisions needed to be made about U.S. 
assistance, including to the Lebanese Armed Forces, or the LAF.
    As I noted in a hearing on Lebanon last year, I've long 
been concerned over reports of the LAF-Hezbollah cooperation 
and U.S. commitment to the LAF. U.S. law stipulates that no 
assistance may be made available to the LAF or Lebanon's 
internal security forces if they are controlled by a U.S.-
designated foreign terrorist organization. Hezbollah certainly 
classifies. While coalitions are still being formed and it is 
not yet certain which ministries Hezbollah or its allies will 
control, I hope that this administration, unlike previous 
administrations from both parties, takes a clear-eyed approach 
to the LAF and reassesses our security assistance to Lebanon.
    Proponents of cooperation with the LAF have long argued 
that the LAF is the best counterweight against Hezbollah and 
the best way to weaken the Hezbollah influence. Yet, after 
years of cooperation there is zero evidence that this policy is 
working. In fact, we've only seen Hezbollah's influence grow, 
including over the LAF. There is no doubt that weakening 
Hezbollah should be U.S. policy. The question is whether we are 
implementing the correct policies to do so.
    I am still having a hard time understanding why the 
administration decided to cancel U.S. democracy and governance 
assistance in the run-up to the elections, assistance that 
could help support Lebanon's moderate forces. When I asked 
State about this in October, I was told that the administration 
would continue to support these programs. Yet, in report after 
report afterward, we heard that Embassy Beirut decided to 
cancel them. It is impossible to know what the election results 
would have been had these programs been continued. But one 
thing is clear: Moderate forces have lost once again in 
Lebanon, and Hezbollah and, by extension, Iran, have further 
consolidated control.
    In Iraq, in a slightly different but no less dangerous a 
scenario, the Sadr alliance surprise win has up-ended the 
presumed political order there, forcing a lot of people, 
including both in the U.S. and in Iran, to scramble. Notorious 
for his anti-American views and leadership of a militia that 
killed hundreds of American troops in the mid-2000s, Sadr is 
now portraying himself as a nationalist and a reformer 
committed to rooting out corruption and protecting Iraqi 
sovereignty. This is certainly going to put the U.S. in a 
difficult position as our future relationship with Iraq is now 
at best in limbo.
    There are also a lot of questions about Sadr's relationship 
with Iran and his professed resistance to Iranian influence. 
It's unclear just how strongly he believes in stopping Iranian 
interference in Iraq and even if he's capable or willing to do 
so. The Iranian Quds Force commander has been making the rounds 
over the past week, shoring up ties with pro-Iranian 
politicians in an attempt to forge a more favorable coalition 
for Tehran--prospects that would severely jeopardize all of the 
progress and effort that we have put into Iraq.
    As of now, it remains to be seen exactly what type of 
coalition we end up with. I do hope we are doing everything we 
can to limit or push back against the influence of Iran and, at 
the same time, we should also be planning on what to do for all 
possible outcomes.
    What is clear, however, is that Iran is not going anywhere 
anytime soon in the region and, by all accounts, despite 
whatever complications Sadr may cause, will maintain a 
tremendous amount of influence. In both Iraq and Lebanon, Iran 
continues to gain both in power and influence to the detriment 
of their citizens, regional stability, and U.S. national 
security interest.
    With Secretary Pompeo laying out the administration's Iran 
strategy just yesterday, I am looking forward to hearing from 
our witnesses, their critiques as well as their recommendations 
for rolling back Iranian influence in Lebanon, in Iraq, and 
throughout the greater Middle East. I am also looking forward 
to hearing their assessment on how we can get to this point, 
why the U.S. was unable to make more progress in both countries 
leading up to the elections, and how we can work with our 
allies to counter Iran and advance our mutual interests in the 
region.
    Thank you so much, and with that I will yield to my friend, 
Mr. Schneider, of Illinois.
    Mr. Schneider. Thank you, Chairman Ros-Lehtinen, and I want 
to thank you and Ranking Member Deutch for convening this 
meeting. In advance, I will thank the witnesses for sharing 
your perspectives and insights on this important issue.
    These elections in Lebanon and Iraq are, obviously, very 
important for a number of reasons. It has impact in the 
countries. It's going to have an impact in the region, and the 
outcomes of this election and the directions these countries 
take are going to have an impact on United States interests.
    The election on May 6th in Lebanon was the first election 
since 2009. It should have--perhaps could have been an 
important step forward. But I was very disappointed, 
personally, by looking at it from the perspective of Congress 
to see the gains made by political parties affiliated and 
allied with Hezbollah. I have long been concerned by 
Hezbollah's operations in Lebanon and its involvement in the 
country's government. I am even more concerned by Iran's 
growing influence in the region, as evidenced by these recent 
events.
    I would like to associate myself with Chairwoman Ros-
Lehtinen's comments, and I think we need to make sure we are 
looking not just at the short-term implications of Hezbollah's 
success but the long-term implications for Lebanon and the 
region.
    As I turn to Iraq, Muqtada al-Sadr's return to prominence--
this rise in this election--should be a concern for all of us. 
The future remains unclear, but the influence of--growing 
influence of Iran appears almost certain. The common thread 
between both these elections appears to be Iran and Iran's 
influence in the region.
    I think it's critically important that the United States 
focus on this and develop a strategy, articulate and share that 
strategy not just with Congress but the world.
    I want to thank the subcommittee for holding today's 
hearing so we can hear from our witnesses on how best to push 
back against Iran's increasing malign influence.
    We have to find a way to support legitimate aspirations of 
Lebanese people, the Iraqi people, to create better lives for 
themselves. We have to do it without propping up organizations 
like Hezbollah or strengthening Iran's other proxies.
    Again, I want to thank the chairman and the ranking member 
and our witnesses today for your time. And with that, I yield 
back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Schneider.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair. Thank you for holding 
this important hearing, and I will be very brief in my 
statement so that we can get to our witnesses.
    As former chairman of this committee and having been on the 
committee for more than two decades now, I would just note that 
whereas it's encouraging to see both Lebanon and Iran hold--
excuse me, Iraq hold elections that it's concerning to see 
Iran's growing influence both in Iraq and in Lebanon.
    In Lebanon, Hezbollah and their allied factions hold an 
increasing number of seats there, a majority in Parliament, and 
despite its political influence Hezbollah, let's face it, 
remains a terrorist organization that directly threatens our 
principal ally in the region, Israel--and it really does 
threaten the entire stability throughout the region.
    The intelligence community, in fact, now believes that 
Iranian proxies are the primary threat to our personnel in 
Iraq. So after we spent so much blood and treasure, we must not 
let Iran reap the benefits of those sacrifices that were made 
at such a high cost by so many of your troops there, and then 
the effort that was made to finally destroy, for the most part, 
ISIS. So let's make sure that Iran is not the entity that 
ultimately benefits from the blood and the hard work of so many 
Americans and our allies.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    And now, Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair.
    One of my biggest worries is that in the Western world we 
are kind of tired of defending democracy and freedom and we 
think we are exhausted. We are not, but we think we are.
    We convince ourselves we are sometimes and, in fact, when I 
came out of Iraq in 2009 that's actually when I made the 
decision to run for Congress, because I had seen between 2008 
and 2009 massive improvements because of the surge in Iraq, and 
I knew that Iraq could be successful but we'd have to stick 
with it for a little bit.
    And I heard the President at the time--the new President, 
Obama--say that he wanted to get out of Iraq, and I remember in 
2011, in fact, he said we are leaving behind a stable 
democratic free--all these great adjectives--Iraq and we left.
    And pretty soon we had ISIS, we had the collapse of the 
government and we are back. So my biggest concern right now, 
Madam Chair, is that as we look at the behavior of Iran in the 
region I think we've done the right thing by pulling out of the 
Iran deal because of their bad behavior. But I think it's 
important that no matter what happens in Iraq we be careful not 
to leave it behind because I've got another 5 years in the 
military and people I know are going to be in there even 
longer. I don't want to go back again. It's better to stay than 
leave and come back.
    So with that, Madam Chair, I thank you for holding this, I 
thank the guests for being here and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Kinzinger.
    And now I am pleased to yield to our ranking member, Mr. 
Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairwoman, for calling this 
hearing. I also want to welcome back our panel of experts, all 
familiar faces to this committee. We appreciate your being here 
today and we look forward to your insight.
    This has been a thought-provoking few weeks in the Middle 
East, to say the least. We've watched as elections were held in 
Lebanon and Iraq. Clashes erupted between Israel and Iran on an 
unprecedented level. The U.S. Embassy moved to Jerusalem, 
Hamas' violence renewed near Gaza in its aftermath, and the 
U.S. withdrawal from the JCPOA--all of this gives us on this 
committee much to consider and all of this impacts the 
discussion we are going to be having here today.
    Both Lebanon and Iraq are strategic interests to the United 
States. Both have teetered on fully entering Iran's sphere of 
influence in recent years, and while the results of the 
elections invite concern over the success of anti-U.S. Shi'a 
groups, we commend both countries for holding what we at this 
time believe to have been fair and honest elections. Democracy 
as an institution must be led from within and we congratulate 
Lebanon and Iraq for continuing on the path toward democracy.
    Dr. Wittes, you co-led the National Democratic Institute's 
delegation to observe the Lebanese elections and I look forward 
to your take on democracy in action as you saw it.
    As we wait to see how the elections will impact the 
formation of new governments in both countries, there are a lot 
of questions for us to think about in addition to the lingering 
questions about these countries' stability and the trajectory 
they're taking. We are concerned about the possible impact of 
the outcome of these elections to the Lebanese and Iraqi 
relationships with the United States.
    In Lebanon, where the U.S. has dedicated significant 
assistance in its economic and security sectors, we watched as 
a very low voter turnout, estimated at less than 50 percent, 
voted for traditional Hezbollah-allied partners.
    And I reiterate my long-standing position that Hezbollah is 
a terrorist organization in its entirety and efforts to 
normalize Hezbollah and similar groups under the guise of 
politics is both misguided and it is dangerous.
    Nevertheless, I believe we must remain committed to helping 
those legitimate government institutions and forces in Lebanon 
that can counter Hezbollah and, ultimately, Iran's malign 
influence.
    I am deeply concerned about Iran's intentions to promote 
the conflict between Hezbollah and Israel. The United States 
must work to prevent Iran from establishing a permanent 
military presence in Syria from which we have now seen it 
directly and brazenly attack Israel, and from continuing to 
transfer weapons and capabilities to Hezbollah in Lebanon.
    In Iraq, the recent elections propped up the anti-U.S. 
cleric, Muqtada al-Sadr, whose violent insurgencies against 
U.S. forces resulted--has resulted in so many U.S. military 
deaths and we are deeply concerned by the Iranian voices 
permeating from Baghdad and the calls for the U.S. to disengage 
from the region where we have expended so much blood and 
treasure.
    The conventional defeat of ISIS is a tremendous victory but 
for long-term success to take hold Baghdad and the United 
States must remain vigilant.
    A strong democratic Iraq cannot be achieved under the 
influence of the tyrannical Iranian regime and Iran's attempts 
to sway Iraq in its direction are concerning.
    Apart from foreign influence concerns, both Lebanon and 
Iraq have economic and security concerns that cannot be 
ignored. ISIS and the effort to defeat the group left Iraqi 
cities in rubble with over 2 million Iraqis displaced.
    Lebanon is struggling with the impacts of a mass surge of 
Syrian refugees. Economic growth is vital to stability in both 
countries and I am concerned about government services failing 
to provide for citizens who may then turn to groups like 
Hezbollah or ISIS to fill the gap.
    We've got to examine the domestic issues and concerns that 
led to the outcomes produced by these elections if we are going 
to fully understand how the ultimately formed governments will 
orient themselves.
    There is a great deal to unpack here and I thank our panel 
of experts for their time and expertise in helping us do that, 
and I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now we turn to Ambassador Wagner for an opening 
statement.
    Mrs. Wagner. Thank you, Madam Chairman, for hosting this 
hearing.
    It's encouraging to see Iraq and Lebanon hold democratic 
elections. I am, however, deeply concerned to see Iran's 
influence increasing steadily, if slowly, in Iraq and Lebanon's 
governing bodies.
    Iran does not hesitate to sow discord in its democratic 
neighbors to undermine our regional initiatives. Democracy 
flourishing in the Middle East is good for American interests 
and long-term stability of the region. It is clear to me that 
any strategy to contain Iran must include a democratic 
independent Iraq and Lebanon.
    I look forward to hearing from the witnesses and the 
questions that will ensue. I thank you, Madam Chair, for your 
indulgence and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Ambassador Wagner.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Yes, thank you very much for holding the 
hearing today and if we are concerned about Iran--excuse me, 
Iraq and Lebanon and we are concerned about the expansion of 
Iranian influence, again, let me remind us, as I have in this 
hearing room so often, Iran is not our enemy.
    The mullah regime in Iran is our enemy, and the reason why 
we see that we are losing ground--that we are losing ground in 
Lebanon and in Iraq is because we have let the mullahs off the 
hook. They don't have any internal worries so they are on the 
offensive.
    When we could be helping the Kurds--there are more Kurds in 
Iran than there are in Iraq--but we should be helping the Kurds 
in both Iran and Iraq. There are Baloch. There are people in 
Iran who hate the mullah regime and they're getting not the 
type of support that they need, and if we started that strategy 
we would have the mullah regime probably defeated within a 
short period of time or at least not engaging in these 
activities in Lebanon and Iraq that are--that are threatening 
to our security and the stability of that region.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Rohrabacher.
    Seeing no other requests for time, now I am delighted to 
welcome our panellists.
    First, we thank Dr. Michael Doran, senior fellow at the 
Hudson Institute, where he specializes in Middle East security 
issues.
    Prior to this position, Dr. Doran was a senior fellow at 
the Brookings Institute, held positions at NYU, Princeton, and 
the University of Central Florida--finally, a good university--
and served as a senior director in the National Security 
Council.
    Thank you so much for being here today, sir. We look 
forward to your testimony.
    And next we are delighted to welcome back Danielle Pletka, 
senior vice president for foreign and defense policy studies at 
the American Enterprise Institute and an adjunct professor at 
Georgetown University.
    Prior to this, Ms. Pletka served as a staffer for the 
Senate Committee on Foreign Relations.
    Thank you for being here.
    We look forward to your testimony, and we see that your two 
daughters are there behind you--two out of three. Thank you 
very much for being here today. We'll try to embarrass you as 
much as possible, daughters.
    And finally, we are delighted to welcome back Dr. Tamara 
Cofman Wittes. It doesn't matter how many times you come here. 
I am still going to slaughter your name. Wittes? Wittes--there 
we go--senior fellow in the Center for Middle East Policy at 
the Brookings Institute.
    Previously, Dr. Wittes served as deputy assistant secretary 
of state for Near Eastern affairs as well as Middle East 
specialist at the U.S. Institute of Peace and director of 
programs at the Middle East Institute.
    Thank you so much, all of you, for being here. We look 
forward to your testimony. As I said, your written statement 
will be made a part of the record. So please feel free to 
summarize, and we will begin with you, Dr. Doran.

 STATEMENT OF MICHAEL DORAN, PH.D., SENIOR FELLOW, THE HUDSON 
                           INSTITUTE

    Mr. Doran. Chairman Ros-Lehtinen, Ranking Member Deutch----
    Ms. Ros-Lehtinen. Move your microphone just a little bit.
    Mr. Doran. How's that?
    Chairman Ros-Lehtinen, Ranking Member--Ranking Member 
Deutch, members of the committee--of the subcommittee, it's a 
privilege to speak to you today.
    I thank you for the opportunity to testify on the 
implications of the elections in Iraq and Lebanon. In both 
countries the results represent a setback for the United 
States.
    In Lebanon, they have, obviously, strengthened the hand of 
Hezbollah. In Iraq, opinion is divided about the extent to 
which Muqtada al-Sadr's rise represents a victory for Iran.
    Even if the results turn out to be less damaging than the 
pessimists predict, there is nevertheless little doubt that 
they complicate American efforts to contain Iran.
    These setbacks, however, are but the latest in a long 
string of Iranian advances and they are by no means the 
greatest advances. With your permission, I will concentrate on 
how the United States might, in broad strategic terms, rebound 
and reverse the trend. I will focus my remarks in particular on 
the strategic implications of President Trump's decision to 
withdraw from the Joint Comprehensive Plan of Action. That 
decision certainly lays the groundwork for a more effective 
American policy. It will not, however, prove sufficient to turn 
the tables on Tehran.
    The United States, I will argue, should adopt a two-speed 
approach to its competition with Iran. I will argue it should 
adopt a two-speed approach to its competition with Iran--
aggressive and uncompromising in some areas such as Syria and 
Lebanon, where it enjoys a freer hand, and more nuanced in 
countries such as Lebanon and Iraq, where conditions are not 
conducive to an unfettered competition.
    Yesterday, Secretary Pompeo laid out a broad strategy or a 
broad policy of rolling back Iranian power throughout the 
region, not just in the nuclear program, but also in terms of 
its support for terrorism and its influence in the region. I 
strongly welcome this approach. I think it correctly defined 
the Iranian problem and I think it dispensed with a lot of the 
illusions of the last 4 or 5 years in which we have seen 
ourselves engaging with moderates in Iraq and strengthening 
them and bringing them into the family of nations.
    And I think that Secretary Pompeo's speech spoke with 
admirable clarity about the essence of our strategy now, which 
is one of coercing Iran. Now, the critics of this policy are 
presenting it as a choice of war over peace but I think that's 
a false depiction, because what they are calling peace was 
actually appeasement, as, I think, all of the--everyone who 
spoke today on the subcommittee said.
    Iran has been on the march and, unfortunately, that march 
has been facilitated by the enrichment of Iran that the JCPOA 
made possible. So the administration is to be--the 
administration is to be credited with seeing things clearly and 
for laying the groundwork for a policy of seriously containing 
Iran. However, we have to be clear about the fact that Iran is 
not going to be coerced simply by reimposing the sanctions, 
which the JCPOA--which the decision about the JCPOA will 
entail.
    Coercion means actual coercive policies--the use of hard 
power to make Iran pay a price for the--for its military 
adventurism around the region.
    In Secretary Pompeo's remarks, he actually spoke about 
crushing Hezbollah and proxies. The word was very evocative. It 
stood out. But I am afraid that it didn't strike fear in the 
hearts of any Iranian leaders because they have been treated to 
this kind of frightful rhetoric before and they have developed 
a number of--a number of clever mechanisms for defeating 
American hardliners or, let's just say, hardline policies. They 
have come with ways of waiting us out and wearing us down.
    The two-speed strategy that I suggest is one in which we 
can actually bring hard power to bear against Iran in some 
arenas and in other arenas, like Lebanon and Iraq, having a 
somewhat lighter touch. The essence of it, as I describe in my 
written testimony, is that we should be relying, especially in 
Syria and in Yemen, on allies who are already in the hard power 
fight against Iran and Israel, in particular.
    I note that our military is very reluctant to get directly 
involved in the conflict against Iran and it complains that it 
doesn't have an authorization of force. Given that fact--given 
the difficult politics around it, I think where we should be 
focusing our attention in terms of raising the cost to the 
Iranians across the board is by strengthening the Israelis in 
Syria and strengthening the Saudis in Yemen through military 
support, intelligence support, diplomatic support, and other 
forms of assistance.
    In Iraq and Lebanon in particular I think we have to be 
aware--we have to admit that our influence has been somewhat 
diminished and that the complex nature of our interests in 
those--in those countries will make it difficult for us to 
carry out a hard-power competition with the Iranians there.
    But we have to do much more. Chairman Ros-Lehtinen, you 
mentioned the--withdrawing support or reviewing support to the 
LAF. The LAF, in my view, is actually the--should be of 
secondary concern to us. The primary concern to me is the 
control or the influence that Iran and Hezbollah have in the 
banking and finance sector in Lebanon. That's where it would 
put the emphasis.
    I'll just end by saying this--that the Bipartisan Policy 
Center issued a report on Iran policy recently which laid out 
three basic options without choosing one of them. Option one 
was roll back, option two was containment, and option three was 
modus vivendi. Under the Obama administration, we had a policy 
that sought modus vivendi with Iran without acknowledging it. 
The effect was that we realigned our policy from Baghdad to 
Beirut in parallel with the Iranians. When the Trump 
administration came in, it didn't have a roll back option in 
any of the--in Iraq and Syria or in Lebanon.
    I don't think that this decision that it has made is going 
to make roll back possible. I think, however, containment in 
those--in Lebanon and Iraq is possible. Roll back is possible 
in Syria. But the administration has yet to announce that it is 
actually going to engage in that kind of hard power roll back, 
which I think is absolutely essential to the success.
    If we don't raise the price to Iran across the board, then 
the strategy that they have outlined will not succeed.
    Thank you.
    [The prepared statement of Mr. Doran follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Pletka.

   STATEMENT OF MS. DANIELLE PLETKA, SENIOR VICE PRESIDENT, 
    FOREIGN AND DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE 
                           INSTITUTE

    Ms. Pletka. Chairman Ros-Lehtinen, Mr. Deutch, members of 
the committee, thank you so much for asking me to join you here 
today. It's really a pleasure to be back and thank you for 
embarrassing my children. It's really been my life's work and I 
am always happy to have help.
    A few months ago, I wrote an op-ed in the Wall Street 
Journal asking whether the United States intended to lose Iraq 
as we have lost Lebanon. The question really feels all the more 
apropos today in the wake of the troubling elections we've been 
talking about here today in both those countries.
    So let's skip to the punch line. In both these cases, the 
United States has, or once had, a chance to challenge Iran at a 
relatively low cost. But as we have already done in Lebanon and 
Iraq, too, I fear, we will miss that chance because we are 
focused elsewhere, myopic about our potential influence, and 
really too willing to lie to ourselves about the status quo. We 
are really, apparently, indifferent in too many cases to the 
march of the Islamic Republic of Iran across the greater Middle 
East.
    Beginning with Lebanon, the results of the election are as 
depressing as they were predictable. Prime Minister Saad 
Hariri's party lost and their allies lost about 15 seats, which 
was a rout rooted in both Lebanon's own dysfunction, Hariri's 
own lackluster performance and the somewhat bizarre interlude 
during which he was kidnapped to Saudi Arabia.
    The winners were two: A protest vote for the Lebanese 
forces, which shouldn't be confused with the Lebanese Armed 
Forces--they picked up seven seats--and the other was Hezbollah 
with its own party and allies picking up about 15 seats. Tammy 
noted to me that Walid Jumblatt's party also picked up seats. 
Where Walid will stand is always a question in everybody's 
mind, but he has stood with Hezbollah.
    This is the same Hezbollah that's amassed an arsenal that 
would be the envy of many countries. Israel estimates Hezbollah 
has more than 150,000 rockets in the south of Lebanon, built up 
in violation of U.N. Security Council Resolution 1701. Worse 
still, I understand that Iran is changing its arms transfer 
modus operandi. Because it recognizes the difficulty of 
transferring weapons to its proxies over land, through air, 
over sea, it is instead concentrating on transferring know-how: 
Rocket, missile building, guidance system, things like that. If 
Hezbollah or the Houthis or Hamas or any of Iran's many proxies 
throughout the region have the know-how to build more and more 
advanced weaponry and the operational latitude to do so, as 
they do now on Lebanese soil, what does the future hold?
    The last elections confirmed for us that the next 
Government of Lebanon will be run, largely, by Hezbollah, which 
means, of course, it will be run, largely, by Tehran. I know, 
as Mike said, that the Treasury Department is concerned about 
the integrity of Lebanon's banking system. In addition, we 
should be worried about the fact that Hezbollah reportedly 
wants the Interior Ministry, the Public Works Ministry, and the 
Economy Ministry as for itself using the cash that they can get 
out of those ministries to ease the burden on their sponsor in 
Iran, which is having some economic difficulties.
    So that leaves for us the Lebanese Armed Forces. The 
Lebanese military claims not to coordinate with Hezbollah but 
there's evidence to the contrary. Last year, Hezbollah's 
military parade in Syria included a U.S. M-113 armored 
personnel carrier. Did it come from the Lebanese Armed Forces? 
Intelligence sources in some countries say yes. The U.S. says 
it doesn't think so. But we know that in southern Lebanon the 
LAF have allowed Hezbollah to restock, shared intelligence with 
them, and have jointly manned checkpoints.
    Given the weight of the evidence--and there's more, I am 
pretty sure, in a classified setting--is it not appropriate to 
worry the Government of Lebanon is effectively itself becoming 
a proxy of Iran?
    In light of that, consider we've given more than $1.5 
billion to Lebanon in security assistance and even more in 
development and economic support.
    Defenders of the U.S. posture in Lebanon including some in 
the White House, the State Department, and at the Pentagon 
suggest the LAF are an effective fighting force against ISIS. 
General Votel, the commander of CENTCOM, has been very 
insistent on that regard. But if fighting ISIS is our sole 
standard, why should we not arm and support Hezbollah? They're 
pretty good at that, too.
    That's the challenge we face. The enemy of our enemy isn't 
always our friend and the same is true, unfortunately, in Iraq.
    In part assisted by an alliance with the Iraqi military and 
the so-called popular mobilization forces, we were able to 
secure a victory against ISIS in Iraq. But this pact with 
Iranian Islamic Revolutionary Guard Forces-supported Iraqi 
units will mean the U.S. and the Government of Iraq ultimately 
pay a very heavy price, and look no further than the results of 
these elections in which our ally, Haider al-Abadi, came in 
third place, trailing the leader of the Popular Mobilization 
Force's Hadi al-Amiri and Muqtada al-Sadr.
    Unlike in Lebanon, we don't know what the outcome of the 
Iraqi election is going to be and it may not be a slam dunk for 
Iran. But there's an underlying point here, and that is the 
lesson unlearned by the United States in Lebanon and, 
apparently, still unlearned in Iraq today. The Islamic Republic 
of Iran has a foreign policy model. They do not seek to 
dominate. They seek to influence and, if necessary, 
destabilize. They do so through their proxies and, 
increasingly, through their proxies in Iraq as well. These are 
Iranian expeditionary forces not only loyal to their own 
countries but answering to command in Tehran.
    If I may have just another 30 seconds.
    Ms. Ros-Lehtinen. Without objection, go ahead.
    Ms. Pletka. Iran is no Soviet Union. Its economy is weak 
and its hold over its own people is tenuous, as you yourselves 
have noted. But victory after victory in the Middle East should 
suggest to us that Iran has a winning formula, one that would 
be--one that could be countered with a serious U.S. strategy of 
engagement, a theory of our own victory, and one that would not 
contemplate an every decade return for war in the Middle East.
    We must shore up the Iraqi Government as we fail to shore 
up the Lebanese against Iran. We must do so without wavering in 
our commitments, and by offering them choices: Us or them. Us 
must mean genuine political and economic engagement and 
leadership. This is what you were talking about that both the 
Obama administration and, unfortunately, the Trump 
administration has cut back on. That kind of engagement is far 
cheaper than war. It must start with aiding the battle against 
corruption, which erodes confidence in democracy and markets in 
Beirut and Baghdad, and it must continue with a commitment to 
institutions of government.
    You may well ask, because I know we are going to talk about 
this, whether that is not what we have done with the Lebanese 
Armed Forces in Lebanon, and my answer is no.
    We've looked away as that country has been sucked into the 
Iranian vortex, and failed to bolster those who naturally 
despise Iran and its terrorist proxies.
    We've allowed weak leaders to take our money and our 
weapons while serving a foreign master--perhaps not always 
directly but, certainly, indirectly.
    We've never put it to our nominal allies that they must 
stand against Iran and Hezbollah, not simply rhetorically but 
actually. We've never laid the burden on them to prove they're 
not working with a designated terrorist organization.
    I believe we failed in Lebanon and I believe we've lost. 
Now we are faced with the same choice in Iraq. We can either 
force these countries to choose between Washington and Tehran, 
or we can continue to bury our heads in the sand and allow Iran 
to win again and again.
    Thank you.
    [The prepared statement of Ms. Pletka follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much.
    Doctor.

STATEMENT OF TAMARA COFMAN WITTES, PH.D., SENIOR FELLOW, CENTER 
       FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Ms. Wittes. Madam Chairman, Ranking Member Deutch, 
distinguished members of the committee, good afternoon and 
thank you for inviting me.
    I must begin, as always, by noting that I represent only 
myself before you today. Brookings does not take institutional 
positions on policy issues and although, as Congressman Deutch 
noted, I was a leader of the NDI observer delegation in 
Lebanon, I am not representing NDI today either.
    The elections in Iraq and Lebanon earlier this month, I 
think, present a fragile but important counterpoint to a region 
in turmoil. Extremists claim that only violence can bring 
change, and these elections promise another path, and when 
Lebanon and Iraq pull off free elections under such trying 
circumstances as these, I think it's harder for strongmen 
elsewhere to argue that they can't afford the risk to stability 
of allowing their own peoples a choice in who governs them.
    The political outcomes from these votes offer both risks 
and opportunities for American policy. I think we need to be 
wary of drawing strong conclusions from ambiguous results and I 
don't think we have yet lost in either place.
    There are some developments worth nurturing. To curtail 
Iranian influence to advance our own interest in stability and 
counterterrorism, the U.S. needs to stay engaged using 
diplomatic and economic tools and working together with 
regional partners who share our goals of promoting stability 
and tempering Iranian influence.
    The greatest risk for American policy toward Lebanon and 
Iraq right now would be to embark on blunt force policies 
either by walking away from the fight or by squeezing these 
fragile countries into unwelcome crisis. I think those tactics 
would actually give away American influence and advantage Iran 
further across the region. Let me describe a couple of trends 
that I saw in both countries that I think are worth noting and 
building on.
    In both Iraq and Lebanon, elections yielded low turnout--49 
percent in Lebanon, 44 percent in Iraq. Both those who voted 
and those who stayed home expressed impatience with established 
political movements who are more interested in dividing the 
spoils of government than in actually governing. And in both 
places, security gains have increased citizens' appetite for 
effective governance--for governance that meets their core 
needs. In both countries the military and the security services 
are relatively trusted national institutions, certainly 
compared to other parts of the government, and in both 
countries we see in public opinion polls nationalism is growing 
relatively to sectarianism.
    And these are trends that present some opportunities for 
new moderating political forces to emerge. But they also 
present the risk that if citizen needs aren't addressed, those 
citizens might just give up on politics and on government as a 
source of solutions to their problems.
    So we have a stake in supporting healthy political 
competition. Now, in neither country did I see an electoral 
outcome that significantly shifts the balance of power between 
Iran's allies and its adversaries.
    As I said, that battle is not over. In Iraq, the process of 
government formation will be much more important, I think, to 
determining Iran's role than the election itself was. And I 
think that the U.S. can be clear about the principles it 
expects a new government to embrace, and we can work with 
regional partners to create incentives for Iraqi party leaders 
to move in the right direction.
    In Lebanon, I don't think it's quite right to say Hezbollah 
won these elections. I think, in fact, Hezbollah won the 
political game a couple of years ago in October 2016 when, a 
few months after Saudi Arabia cut off its aid to the Lebanese 
Government and to Hariri's political movement, Hariri cut a 
deal with Hezbollah to return as prime minister and that's the 
deal that seems to hold now.
    But I have to note that Hezbollah's heavy engagement in 
Syria has costed over 1,000 battle dead. It's weakened its 
focus on providing for Shi'a communities in Lebanon, and this 
political campaign showed that even Hezbollah had trouble 
getting its loyal voters to the polls, and it faced new 
independent political challenges it hadn't seen before. I think 
the failure of Saudi Arabia's ``my way or the highway'' 
approach to Lebanon over the last couple of years should be 
instructive to us now. Walking away from the table is a good 
way to ensure you lose the game.
    And just to slightly correct the view that Dany ascribed to 
me, it was actually Geagea's Lebanese forces that increased its 
vote that I was pointing out to you. Jumblatt is about the 
same.
    One final note, if I may, about our approach to Iran and 
how these elections fit into the picture. Secretary Pompeo's 
speech yesterday laid out a list of desiderata for changed 
Iranian policies that I think we can all agree are worthy 
goals. But a strategy links goals to means and yesterday's 
speech did not lay out a realistic path by which we can achieve 
the goals that we seek.
    The Trump administration's declaration of maximum pressure 
on Iran I think is likely to be tested very quickly by the 
Iranian Revolutionary Guard Corps ratcheting up conflict in 
existing areas of tension around the region, and while 
sanctions are important, they have not historically done much 
to constrain the IRGC's regional activities.
    Sadly, those activities are relatively cheap for the IRGC 
and the Iranian regime. What troubles me is that at the same 
moment the Trump administration is looking to walk away from 
key arenas in Syria, abandoning local allies, and freeing up 
space for both Iranian proxies and Sunni extremists who feed 
off one another, it's hard for me to understand the recent 
White House decisions to withdraw our special forces fighting 
ISIS, to freeze $200 million in pledged reconstruction 
assistance, or to cut aid to areas in Idlib Province that have 
been freed from ISIS rule. So I worry that the determination to 
neglect our hard-won gains in Syria risks the resurgence of 
ISIS, cuts directly against our ability to shape this ongoing 
competition for influence against Iran, and weakens our ability 
to support our anxious regional partners and protecting their 
own security against Iranian depredation.
    We've got to stay engaged. We need a strategy that's long 
term and one that combines military and intelligence assets 
with diplomacy and economic support.
    Thank you.
    [The prepared statement of Ms. Wittes follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Dr. Doran, Ms. Pletka, 
and Dr. Wittes. Got them all now.
    I would like to get your opinion on U.S. policy on our aid 
to Iraq. If the Sadr organization or any Iranian-linked entity 
continues to control Iraq's Interior Ministry, is it in the 
interests of the United States to continue aiding Iraq's 
interior security force?
    Mr. Doran. I think it is. I think in the--in the short term 
we don't know who Sadr is and it's really a competition now 
between us and Iran over the direction of Sadr. I think it 
would be too early to make any kind of precipitous change to 
the policy until we can stand Sadr before a couple of tests and 
see which way things are going.
    You know, when you look at the core experiences of the 
Iranian regime, it all goes back to the Iran-Iraq war and the 
threats that emanated from Iraq. So the key desire of the 
Iranians I think--the key strategic desire is to make sure that 
there isn't an independent Iraqi military that can ever 
threaten Iran again. And that's got to be the key area of 
competition, and my fear is the same is Tammy's, that if we 
leave the game we are just going to hand it over to them.
    The fact of the matter is we have to play the game a little 
bit more like they do, which is when the Iraqis do something 
that the Iranians don't like, the Iranians threaten their lives 
or the lives of their loved ones. When the Iraqis do something 
that we don't like, we send a demarche.
    Ms. Ros-Lehtinen. Well, let's not adopt their strategy, 
though.
    Mr. Doran. We have to threaten things that the Iranians 
hold dear. How's that?
    Ms. Ros-Lehtinen. All right. That's better. Thank you.
    Ms. Pletka.
    Ms. Pletka. I am going to make a slightly less bloodthirsty 
comment than Mike. I mean, Muqtad al-Sadr has tried to 
refashion himself as an anti-corruption crusader. I am not 
quite sure it's true but, on the other hand, it's certainly a 
role that's much needed to be filled in Iraq, as I think we 
could probably all agree.
    You know, one of the things that was very interesting that 
happened in Lebanon some years back--two decades back--was that 
Lebanon had been riven into very--in the wake of the civil war 
had been riven into all of these different militias who 
answered to different sects and to different religious parties 
and to different political parties and to different outside 
powers.
    It's not an unanalogous situation to the one that we see in 
Iraq today, although Iran is the dominant player for sure, and 
the one thing that I believe we could do to some good effect is 
to try to help the Iraqi military become a military that serves 
the government and the people of Iraq and not the people and 
its masters in the IRGC. That's something that they're only 
going to be able to do with our support. So I think that that 
engagement is vital.
    I think that the right way to think about this is 
competition. We actually do need to compete with Iran on the 
territory that they designate is important to them in order to 
ensure that the people stand with us--an infinitely preferable 
ally than with the Iranians.
    Ms. Wittes. Just briefly, I think Dany's correct to say 
that that Lebanese model of a government is essentially a 
patronage mechanism for the parties within it. That is the 
model that Iraqi Governments have followed for the last several 
cycles. It's possible they don't need to follow that model this 
time and I think that there is actually increased pressure from 
voters to see a more effective government and that's why Sadr 
kind of rebranded himself in this campaign. So I think that 
that gives us something we can build on if we can create the 
incentives.
    The other thing I would say is that I think all of these 
Iraqi parties know that this government is not going to yield 
enough patronage for them if security is not maintained. They 
all know that they need effective internal security and they 
know that they need American help to do it. I think that that 
does give us quite a bit of leverage if we maintain those 
relationships.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    I was struck, Ms. Pletka, by the way you described Iran's 
interests, seeking not to destabilize--seeking not to dominate 
but to destabilize and influence, and which then made me think 
that that seems to be the same approach that some other 
countries take. It's the Russian approach.
    And I read through the secretary's speech again just now 
and I would like to just couch this discussion--take a step out 
and view it through Iran's activities in Syria--Iran, on the 
ground in Syria, attempting and very clearly--in Syria perhaps 
it might be different, much closer to domination than 
destabilisation.
    But the Russians very clearly are interested in 
destabilization in Syria, a policy that extends throughout the 
region, I would think, and I would like you just to speak to 
that combination and the fact, as Dr. Wittes says, that a 
strategy needs to show us how we are going to satisfy our goals 
and what means we are going to use to satisfy those goals.
    And if we are not--if we are talking about the outcome of 
the elections but we are not talking about what's happening 
Syria and the role that Russia plays, then is it even worth 
having a conversation about Iran at all if we ignore that 
critical relationship?
    Ms. Pletka. I couldn't agree with you more. Let me be 
honest, I don't think that any strategy that looks at Iran can 
be through a soda straw in which we--this, to my mind, was what 
was wrong with the JCPOA. The JCPOA was something that 
compartmentalized certain things in Iran and left others in 
their baskets to be dealt with later but, of course, they 
weren't dealt with later.
    Now, you know, we can talk about whether that was a good 
choice or the right way done but that is, in some ways, water 
under the bridge. But we are about to depart on a new strategy 
toward the Iranians that is going to crush them and their 
regime and their economy.
    Isn't the right place to start in Syria? This has been 
inexplicable to me since 2011, frankly. There are those who 
suggest that there's an opportunity for us in Yemen. I think 
that's a slightly more complex environment. The Saudis and the 
Emiratis are there. But for as long as the Iranians are 
victorious in Syria, whether it's for themselves or for their 
allies in the Assad regime, we are not going to be rolling them 
back.
    And your note about the Russians is exactly correct. The 
Russians are opportunists. The Russians are there because we 
are not. The Russians have stepped in not because the costs are 
high to them but because the opportunities are disproportionate 
to the costs, and we have not done enough to raise the cost to 
the Russians for their adventures overseas.
    So----
    Mr. Deutch. So, Dr. Wittes, what is the right approach 
then, particularly vis-a-vis Russia? How is it--what--in the 
strategy that you're looking for, in the strategy that all of 
us are waiting for, what should that strategy--how does that 
strategy include Russia? How do we--and then--and then how does 
that affect the way we deal with Iran in Lebanon and in Iraq?
    Ms. Wittes. You know, I think for a number of years the 
Russians have played this double game with the U.S. and the 
West in Syria where they have simultaneously taken advantage of 
all the opportunities that Dany just laid out, but in addition 
to that, said, well, when push comes to shove, we can help 
deliver the Iranians on a solution here--we can constrain them. 
And the question I've always had is even were they willing, 
which they have yet to really demonstrate they are willing to 
do, could they, in fact, deliver Iran. And this week, I think, 
is instructive in that regard where you had a clear statement 
out of Moscow about the need for foreign forces to depart 
Syria, and the Iranians turned around immediately and said, 
well, I don't know who you're talking about--we are not going 
anywhere.
    So, you know, it may be that American strategy needs to 
push the Russians to make a choice and then see that the 
Iranians are not actually going to go along with their 
preferences and, therefore, that Russia needs to work with us 
to contain Iran's role here.
    Mr. Deutch. I just want to make sure I understand America's 
role. America should push Russia to make what choice?
    Ms. Wittes. Rather than simultaneously saying to us, 
``We'll deliver the Iranians,'' and saying to the Iranians, 
``We'll get the West off your back,'' that they need to make a 
clear--that they need to repeat what they did this week. They 
need to make some clear--set some clear expectations and some 
clear constraints on the Iranians. Now, they have incentive to 
do that right now because of this prospect of escalation 
between Israel and Iran, because Israel has made so clear that 
it will not tolerate IRGC embedding themselves near the Israeli 
border, and this is threatening Russia's own gains in Syria.
    Why is it there? It's there because it wants a permanent 
military presence. It wants to play spoiler against us and it 
wants to make money in Syria's reconstruction. And if there 
ends up being a hot Iranian-Israeli war over Syrian territory, 
Russia is not going to make any money. So I think this is 
actually a moment where we can push them to push the Iranians, 
and they will see they cannot deliver Iran and they're going to 
have to take a harder stance.
    Mr. Deutch. And doesn't that have to be--does that have to 
be a public pronouncement and if it needs to be a public 
pronouncement wouldn't that be the kind of--the kind of 
pronouncement--the kind of pressure to make a decision that 
would belong in, say, a big speech about Iran policy also?
    Ms. Wittes. Yes.
    To me, one of the biggest missing pieces of the speech from 
Secretary Pompeo this week was that coalition. He kept talking 
about an international coalition that agrees with our goals, 
that's going to work with us to advance their goals--our goals, 
and yet he could not specify any track of American policy or 
activity beyond we are going to go out to capitals and talk to 
them that would actually produce that result.
    Mr. Deutch. Thank you.
    Thanks, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much.
    Ambassador Wagner.
    Mrs. Wagner. Thank you, Madam Chairman.
    Dr. Doran, I appreciate your book, ``Ike's Gamble,'' on 
what the U.S. can learn from Eisenhower's administration as we 
examine how to treat our friends and partners in the region.
    I am curious what you think about Iraq's election results 
and I am even more curious to hear your thoughts on the impact 
that President Trump's Iran deal decision will have on our 
friends in the region.
    Mr. Doran. Thanks for mentioning my book. [Laughter.]
    For me, the main takeaway from the Iraq election is that 
Iraq cannot be the primary arena in which we are pushing back 
against the Iranians. But it is absolutely--it is absolutely 
vital that we engage in very significant competition with the 
Iranians in Iraq but more so that there are--there are arenas 
in which we have--we have aggressive unfettered competition 
with the Iranians. If we don't show all of our allies in the 
region that we are really serious about rolling back Iranian 
power, not just--not just causing them some pain but rolling 
them back, I am afraid we'll lose the competition.
    There was actually in my--in my book, since you mentioned 
it, one of my favourite moments in the--in Eisenhower's 
experience with the Middle East came in 1958 after the Iraqi 
revolution, which took Iraq away from the West, and Eisenhower 
decided to intervene in Lebanon.
    And he met with Sam Rayburn, and Sam Rayburn said, I'm--you 
know, Mr. President, I am worried about two things. Number one, 
I am worried about the Russians--that this will provoke them, 
and number two, I am worried that our--we are going to alienate 
Arab public opinion, both of which are important, and I am 
afraid--actually, three things--I am also afraid that there's 
no end game, basically, and that this will all end badly.
    And Eisenhower said--and I think it was a great moment of 
tremendous honesty--he said, ``Oh, it's going to end badly--I 
can assure you of that.''
    The only question is, does it end badly with us reassuring 
our allies that we are with them against their enemy or does it 
end badly with us not supporting our--not supporting our 
allies?
    Mrs. Wagner. Thank you.
    Mr. Doran. And that's the situation that we are in now. We 
have to demonstrate to the region that we really mean business. 
Reimposing the sanctions is good but we have to really push 
back against the Iranians where they are pushing hard, which is 
Syria.
    Mrs. Wagner. Thank you. I agree.
    Dr. Wittes, you just returned from observing Lebanon's 
elections. I am sure we both agree that Lebanon's successful 
elections are a promising sign for Middle East democracy.
    But the real source of democratic longevity is bottom-up 
support, and that takes a long time to develop. Are Lebanon's 
young people engaged in the democratic process? And to what 
extent has Iran and Hezbollah stunted democratic growth in 
Lebanon?
    Ms. Wittes. Thank you, Congresswoman Wagner. That's a 
fantastic question.
    I would say that over the years I have been visiting 
Lebanon, and I also observed the 2009 elections, there's been 
quite a flowering of civic engagement and activism among 
Lebanese youth. The main domestic observer organization, LADE, 
is basically a youth-run organization. The Lebanese 
Transparency Association also represents that rising generation 
of Lebanese, and there were about 800,000 new voters. The age 
of voting is 21 in Lebanon, and because it had been 9 years 
since the last election, 800,000 new voters had entered the 
rolls.
    So all of the parties had to respond to the frustration 
that young people were expressing--that these tired sectarian 
patronage systems were not meeting their needs--and I think 
that does offer the opportunity for shift away from sectarian 
politics to something that's more focused on government 
effectiveness.
    Now, the U.S. Government has made long-term investments in 
Lebanese civil society and youth engagement and empowerment, in 
civic education, and sadly, those investments have flagged in 
the last year and I really do believe those are important and 
worthwhile to sustain.
    Mrs. Wagner. Great. Well, thank you for that answer.
    And I am about out of time. Ms. Pletka, I have a question 
to you but I will spare your daughters and I--Madam Chairman, I 
will--I will submit it for the record and I thank our witnesses 
very much and I yield back.
    Ms. Ros-Lehtinen. Thank you, Madam Ambassador.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman, and again, thank 
you to the witnesses for sharing your perspectives today.
    Dr. Wittes, I will start with you. You made the statement 
that the strategy should be linked to goals--links goals to 
means, and that in this region the United States appears to 
lack a strategy.
    I will start with you but I will open the whole panel: What 
are the implications of not having a strategy and the 
consequences that if we don't get one shortly we are going to 
face?
    Ms. Wittes. Well, thank you.
    I think the primary consequence, in addition to simply 
being ineffective in achieving our goals, is in our 
relationships with those in the region who rely on their 
partnerships with us and on our support.
    And over the course of the last 5 months, I've been to 
Saudi Arabia twice. I've been to Kuwait. I've been to Lebanon. 
I will be in Israel next month. And I would say that I hear 
across the board anxiety about American policy and American 
leadership. The intentions are there. The rhetoric sounds 
great. None of them loved the Iran deal, although the Gulf 
accepted it and I think all of them had some anxieties about 
letting it go.
    But what they really want to know is are you there for us 
for the long haul--can we count on you when it matters, and 
there, I think, there are real anxieties emerging and I would 
say that the recent Trump administration decisions on Syria 
have piqued that anxiety even farther.
    Mr. Schneider. Ms. Pletka.
    Ms. Pletka. The consequences of not having a strategy are, 
you know, as we've all described, which is that we--our allies 
in the region are full of doubt that people who are 
fundamentally well intentioned at any particular level, whether 
in governance or in economics or in civil society, are worried 
that there's not going to be a power that stands by them and 
that those who are there are going to--are going to take 
advantage of our absence in order to push the region back 
toward the direction of autocracy, or worse, in the case of 
Iraq and, I would say, in Lebanon as well.
    But there's another problem here and that's a problem of 
continuity from the Obama administration. Barack Obama famously 
told the Saudis that they were going to need to learn to share 
the region with the Iranians, as if somehow the two of them 
should split everything up while we go home. That's not a 
policy and it's not a strategy, and it was a mistake then and, 
unfortunately, subcontracting to our allies in the region to do 
what they think is right in the absence of a strategy is not a 
great idea either.
    The bottom line is--and I hope all of us, actually, agree 
on this no matter where we stand on the political spectrum--the 
bottom line is that there is no substitute for U.S. leadership. 
Our values, the things we stand for--and that does not mean as, 
I think, our previous President too often insisted, a choice 
between abandoning the region and war. It really means 
engagement. It means standing up for the kinds of things that 
matter to the future of the region in the long term so we don't 
to go back. Good governance, markets--you know, those are the 
things that matter and we need a strategy to get to those 
things.
    Mr. Schneider. I agree with you, and if I could take a step 
to Dr. Doran--that might be the segue to you. I think--and I 
don't want to put words in your mouth, but I think what I heard 
you say is that we should allow Israel to push back against 
Iran and Syria. I will raise the question. Absent a strategy, 
is Israel confronting Iran on the border between Israel and 
Syria has one dynamic and the United States working with our 
allies in the region to keep Iran out of Syria has another 
dynamic. I think the former carries as lot more risk and 
negative consequence than the latter. I would welcome your 
thoughts on that.
    Mr. Doran. Yes. In an ideal world, I would prefer that the 
United States defined the end state that it wants in Syria, and 
put together the coalition to achieve it, assigned roles and 
missions, and so on.
    But after watching our politics over the last--over the 
last 5 years, I doubt that's going to happen and I see, on both 
sides of the political aisle, not a lot of appetite for nation 
building in Syria. So I worked from the assumption that 
that's--that that's the baseline and I have to work within that 
parameter and that's why I--that's why I am talking about 
supporting the Israelis.
    I was struck a couple months ago--then Secretary of State 
Tillerson made a statement--a prepared statement about our Iran 
policy in which he said that the United States was working to 
counter Iran across the region, and then General Votel, the 
commander of U.S. CENTCOM, was testifying before Congress and 
was asked what the military is going to counter Iran in Syria, 
and he said it's not a U.S. military mission to counter Iran in 
Syria.
    Mr. Schneider. I think what he said was he hasn't been 
given instructions.
    Mr. Doran. So but it's also clear to me that the military 
doesn't really want to do it. So----
    Mr. Schneider. And I am out of time.
    Mr. Doran. The basic line--the basic point is, if we are 
not going to do it directly then the next best thing is to 
support our allies who will.
    And yesterday Secretary Pompeo said we want an Iran--we 
want Syria devoid of Iranians. So do the Israelis. So let's 
associate ourselves directly with Israeli red lines and support 
them.
    Mr. Schneider. Well, I agree with that. I agree that we 
need to support Israel. It's our most important ally in the 
region, one of our most important allies in the world.
    But I would just argue that it would be better if Israel 
doesn't have to confront an Iran with permanent bases in Syria, 
and instead we work with Israel and our other allies to make 
sure that Iran can't establish that permanent presence in 
Syria.
    Mr. Doran. I totally agree with you.
    Mr. Schneider. I yield back.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. You know we discuss the Middle East it 
seems so mind boggling in its various parts and I think that we 
have gotten so far away from trying to deal with reality in 
order to keep in place lines that were drawn by colonialists 
100 years ago.
    Here we have--basically, we are, you know, on the verge of 
war. Not on the verge of war--we are engaged, dramatically 
engaged, with violent and warlike activities, all based on 
alliances--on these lines that were drawn.
    Correct me if I am wrong, but Iraq was not a country until 
the colonialists made it a country, and here we are talking 
about how we are going to keep faith with Iraq. There is no 
Iraq. The fact is is that there are different nationality 
groups in Iraq that have--that are--that go many centuries.
    To be very bold, I think that perhaps if we are ever going 
to have peace in that region or be a force for peace in the 
region, it's not going to be because we are taking sides and we 
are involved with the unrelenting confusion and chaos that 
we've seen going on there.
    We don't need to say that we support the Iraqis. But what 
we do need is to find those nationalities that are at play. The 
Kurds are a nationality. They are people who recognize 
themselves as Kurds. The Iraqis don't see themselves that way. 
Am I wrong? They see themselves as Kurds. They have various 
different groups within Iraq and that's how they see 
themselves.
    In Lebanon, we know that you have had--well, you had the 
Druze, you had the Muslims, and you had Christians. I don't 
know--I guess it's been a good thing to try to keep Lebanon 
together.
    But I remember when I was in the White House when Ronald 
Reagan sent the Marines into Beirut and I remember that my 
brother's best friend, who joined the Marine Corps right after 
they graduated from Camp Lejeune High School, was blown to bits 
in that little incident, and Ronald Reagan knew immediately 
that was not the right tactic to use.
    And that's when he worked with--and I am going to brag 
here--he worked with myself and a number of people, maybe five 
or six others, who established an alternative strategy to 
sending American troops everywhere and that was called the 
Reagan Doctrine, and it seems to me it worked because it 
brought down our primary enemy, which was the Soviet Union.
    I guess my question to you folks is that, number one, there 
is a Persian entity that--a nationality. You have Iran but, 
again, we are trying to deal transactionally with a nation-
state that doesn't exist.
    You have got Boloch. You have got Kurds. You do have a 
Persian heart of Iran. Should we not be going into the reality 
of trying to--instead of trying to deal transactionally with 
what are actually nonnations with this--with the colonial 
leftover designations of territory under what jurisdiction, 
wouldn't it be better for us to try to restructure and work 
with those people on restructuring borders by siding with those 
nationalities like Persians as compared to the Iranian mullah 
regime, like the Kurds, like the various Christian--there's 
Christian elements there in Syria as well and we know--I guess 
we are trying to work with them.
    I don't know if that makes any sense to you or not, but 
what doesn't make sense to me is what we are doing--when 
hearing over and again, oh, we are siding with that group. We 
are going to hope that this group wins the election and there's 
no, really, substance historically to any of the groups that we 
are talking about.
    So, as I say, as compared to selecting the Persians, 
selecting the Baloch, selecting the Kurds, selecting those 
groups--the Druze, who are people who have a real nationality 
about them.
    And sorry if I've gone on too long on this question but if 
you want to have a comment to show me how naive I am, thinking 
that we can deal with a Kurdish nation instead of Iraq.
    Ms. Ros-Lehtinen. You did take up the entire 5 minutes with 
the question but we'll have--who's the designated answerer? Dr. 
Doran.
    Mr. Doran. I won't take more than 10 minutes.
    Ms. Ros-Lehtinen. Okay.
    Mr. Doran. The----
    Mr. Rohrabacher. Pardon me. I am sorry for going on too 
long.
    Mr. Doran. I don't--I don't actually agree with you in this 
sense that, yes, those states were created by the--by the 
colonialists. But they've been there for a century and that's 
what we've got. And any attempt to redraw the borders is going 
to be highly controversial, and it's going to affect the lives 
of millions and it's going to be an act of imperialism at least 
as great as the act that created those states to begin with. 
And it's only going to hold if the United States military is 
there in force to hold it. And so, I mean, you're talking about 
another George W. Bush style invasion of the region in order to 
redraw the--redraw the boundaries.
    So I think we are stuck with what we've got, which is 
working with those states which are recognized but also 
recognizing, as you say, that there are some state actors who 
have--some state actors who have their own--their own 
independent organization and ability to influence things. So 
it's--you know, it's an art of balancing the two. But redrawing 
the boundaries I don't think will get us out of the--get us out 
of the fire.
    Mr. Rohrabacher. Well, at least we should be dealing with 
people who we can make--who are our--could be our friends in 
order to defeat the primary enemy, which is what happened when 
we defeated the Soviet Union.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair, and thank you to our 
witnesses.
    I would like to first turn to Iraq and ask you, Dr. Wittes, 
is it possible for the U.S. to work with al-Sadr and his allies 
if they do form a government in terms of achieving our short 
and long-term objectives in Iraq? And what are your assessments 
of his true motivations and where do his loyalties lie? And 
assuming his coalition does take control of the government, can 
the U.S. be expected to work in concert with the same coalition 
who murdered American troops and our partners in droves during 
the height of the Iraq war? Do we have any mutual interests 
that would make that a possibility, and what's your assessment?
    Ms. Wittes. Well, Congressman, I think it's a crucial 
question. I don't think there's an obvious answer.
    But I would say that yes, I think we do have some interests 
in common. We'll have to see how Muqtad al-Sadr chooses to play 
his cards.
    He has demonstrated a great deal of political agility--let 
me put it that way--over the years. He's quite an opportunist, 
and he now sees the political opportunity in moving away from 
militancy, moving away from Iran declaring independence, moving 
against the corruption visible in other parties, including some 
of the traditional Shi'a parties that are more closely allied 
with the popular mobilization units, the militias, and more 
closely allied with Tehran.
    So let's see what we can do--let's see, first of all, what 
his intentions are in terms of government alliances and then 
let's see how we can work with that.
    I think our interests are, number one, maintaining security 
and counterterrorism cooperation with the Iraqi Government; 
number two, an Iraqi Government that is committed to neutrality 
and regional conflicts for--to give you a very specific 
example, we do not want an Iraqi Government that would be 
willing to tolerate these Iraqi militias helping transfer 
militias into Syria, for example. That simply is something we 
can't afford to see again. We want an Iraqi Government that 
will work to resolve the conflict with Kurdistan and we want an 
Iraqi Government that will advance reform, especially in the 
economy.
    I--at least what we hear from al-Sadr right now I think is 
encouraging on all of those fronts and I think we need to press 
for clarity.
    Mr. Cicilline. Thank you.
    And what is your opinion with respect to Iranian goals in 
Iraq, and what are they doing to achieve those objectives?
    Ms. Wittes. So I think their goals are a few. 
Fundamentally, I agree with Dany that they are more interested 
in having a veto than in having overwhelming control.
    But I think that the situation in Syria is such that they 
now seek to use Iraq as well as a sort of staging ground and 
that's something that we must prevent. I think there's also 
money, frankly, to be made there both for them and for their 
allies and I think that we need to ensure that that doesn't 
destabilize the country.
    And so, you know, the goal, from an American perspective, 
of an Iraqi Government that is neutral in regional conflicts 
itself is a goal that heads off Iranian interests. It's a goal 
that will require Iraqi Shi'a parties in a coalition government 
to push back against Iranian requests on a number of important 
fronts and I think that's worth investing in.
    Mr. Cicilline. And, finally, the Iranian representative, 
obviously, vying of Iranian interests in Baghdad is General 
Soleimani, the head of the Quds Force.
    Considering al-Sadr's anti-Iran stance, do you think 
General Soleimani can successfully vie for a pro-Iran 
Government, and if not, if they're not successful in securing a 
pro-Iranian Government in Baghdad, what will the ramifications 
be for Iran's land bridge and what are the implications of 
that?
    Ms. Wittes. Okay. So here we get into a little bit of 
speculation in Iraqi politics, which is very, very 
unpredictable.
    I think there are two major possibilities for government 
formation. One would be a Sadr alliance with Abadi that might 
exclude all, if not most, of those more pro-Iranian political 
factions.
    It's possible they could also put together a big unity 
government. But I think Sadr's initial inclination is an 
alliance with Abadi that would keep some of those guys out. I 
think what Soleimani would probably like to do is put together 
a grand coalition of pro-Iranian Shi'a parties, bring in some 
other non-Shi'a parties who want to feed at the government 
trough, and keep Sadr out.
    And so it's--to me, I think there's a bit of a zero sum 
there, and I think Sadr is going to be looking to see what's on 
the table, not only for himself and his political allies, but 
for an Iraqi Government in which he would participate.
    Our Gulf allies, for example have put on the table 
significant potential economic investments. The Saudis have 
done, I think, a very creditable job of courting Sadr over the 
last year, including welcoming him in the kingdom. They've 
opened a consulate in Basra. They've opened their border to 
trade with Iraq. The Kuwaitis are also suggesting that they 
could do a lot more business in southern Iraq.
    And so there are incentives in play and I think the 
American role here is important as well. I think it's important 
that we not make the mistake of saying, well, our 
counterterrorism fight against ISIS is over--let's cut economic 
engagement--let's cut diplomatic engagement--let's go home.
    Mr. Cicilline. Thank you very much.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline.
    Thank you to our witnesses and let's hope for the best. But 
we fear the worst about the implications of these elections.
    Thank you so much and with that, the subcommittee is 
adjourned.
    Thank you. Bye, daughters.
    [Whereupon, at 3:54 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
